   U.S. DEPARTMENT OF THE INTERIOR
             OFFICE OF INSPECTOR GENERAL
                                      AUDIT REPORT


                      IMPROVEMENTS NEEDED IN
                  MANAGING INFORMATION TECHNOLOGY
                          SYSTEM SECURITY
                       NATIONAL PARK SERVICE




Graphic Courtesy of the U.S. Department of the Interior Office of the Chief Information Officer




REPORT NO. A-IN-NPS-0074-2003                                                               MARCH 2004
                  United States Department of the Interior
                              Office of Inspector General
                               National Information Systems Office
                                 134 Union Boulevard, Suite 510
                                   Lakewood, Colorado 80228

                                                                      March 29, 2004


To:      Director, National Park Service

From:    Diann Sandy
         Manager, National Information Systems Office

Subject: Final Report, Improvements Needed in Managing Information Technology System
         Security, National Park Service (No. A-IN-NPS-0074-2003)

       The subject report presents the results of our audit of security over National Park
Service’s (NPS) information technology (IT) systems. The purpose of the audit was to
determine whether controls effectively safeguarded the systems’ integrity, confidentiality,
and availability. Although NPS has recently improved the security of its IT systems, much
remains to be accomplished before an effective IT security management program is
implemented.

       In the February 6, 2004 response to the draft report, the Director of NPS concurred
with the report’s 18 recommendations. Based on the actions described in the response and
subsequent information provided by the Chief Information Officer for NPS, we classified 2
recommendations as resolved, 2 recommendations as resolved but not implemented, 10
recommendations as management concurs but additional information needed, and 4
recommendations as unresolved. The status of all the recommendations and the additional
information requested is presented in Appendix 4.

        The legislation, as amended, creating the Office of Inspector General requires that we
report to the Congress semiannually on all audit reports issued, actions taken to implement
our audit recommendations, and recommendations that have not been implemented.

        Please provide a written response to this report by May 14, 2004. The response
should supply the information requested in Appendix 4. We appreciate the cooperation
provided by NPS staff during our audit. If you have any questions regarding this report,
please call me at (303) 236-9243.
This Page Intentionally Left Blank
EXECUTIVE SUMMARY

BACKGROUND AND     To support its mission, the National Park Service (NPS)
                   implemented local area networks in most of its approximate
OBJECTIVE          400 offices, program centers, regions and support offices,
                   and park units throughout the United States and its
                   territories. These local area networks connect to 13 regional
                   networks and one NPS-wide network. During our review,
                   NPS reported to the Department of the Interior that NPS’
                   major IT systems comprised 14 general support systems
                   (networks) and 6 major applications. NPS established a
                   senior executive service level chief information officer (CIO)
                   position to provide standardized IT system security policy
                   and management and to head the Office of the Chief
                   Information Officer (OCIO). This office contains
                   approximately 75 federal and contractor employees whose
                   responsibilities included management of IT security and
                   operation of three primary data centers located in
                   Washington, D.C., and Denver, CO. NPS had also
                   established information officers and IT security managers in
                   program centers and regional offices to promote information
                   and IT system security.

                   The objective of the audit was to evaluate the effectiveness
                   of the management and controls over NPS’ IT resources for
                   ensuring integrity, confidentiality, and availability of
                   information and IT systems. During our audit, we visited
                   NPS locations as identified in Appendix 1.

RESULTS IN BRIEF   Despite recent organizational changes, we concluded that
                   NPS lacked the basic foundation for an effective IT security
                   program to ensure that issued IT security directives were
                   consistently practiced. Specifically, NPS had not made sure
                   that:

                       ¾ Personnel were empowered to fulfill their assigned
                         IT responsibilities or were effectively evaluated; IT
                         duties were separated; IT security duties and
                         responsibilities were included in position
                         descriptions; risks of performing IT functions were
                         mitigated through appropriate assignment of position
                         sensitivity levels and subsequent background
                         clearances; and IT personnel were adequately trained
                         to fulfill their duties and responsibilities.


                                  i
                      ¾ Information and IT system risks were effectively
                        managed by: conducting asset valuations to properly
                        categorize systems as mission critical, conducting
                        adequate assessments of risks, and developing
                        system security plans and Plans of Actions and
                        Milestones.

                      ¾ Technical and physical access controls were
                        effectively managed and safeguarded personnel and
                        IT resources.

                      ¾ Changes to operating systems and applications were
                        authorized, tested, and approved.

                      ¾ IT services could be continued in the event of a
                        system failure or disaster.

                      ¾ IT security controls were integrated throughout NPS
                        including incident response capability and a
                        standardized network security infrastructure.

                  As a result, NPS information and IT systems are vulnerable
                  to unauthorized access, misuse, and disruption of service and
                  its IT resources are at risk of being unreliable.

RECOMMENDATIONS   We made 18 recommendations to improve the NPS
                  information security program.

AGENCY RESPONSE   In the February 6, 2004 response to the draft report, the NPS
                  Director concurred with the 18 recommendations. Based on
AND OFFICE OF     the response and subsequent information provided, we
INSPECTOR         considered 2 recommendations resolved and implemented,
GENERAL REPLY     and classified 2 as resolved but not implemented, 10 as
                  management concurs with additional information required,
                  and 4 as unresolved. We requested that NPS provide us
                  additional information on the unresolved recommendations.




                                 ii
                                    TABLE OF CONTENTS

RESULTS OF AUDIT ..................................................................................................1

RECOMMENDATIONS FOR IMPROVING NPS’ INFORMATION
SECURITY MANAGEMENT PROGRAM .........................................................15

AGENCY RESPONSE AND OFFICE OF INSPECTOR
GENERAL REPLY .....................................................................................................21

AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY ...............................23

APPENDICES
    1. SITES VISITED AND SYSTEMS REVIEWED ................................................................25
    2. SUGGESTED MATRIX OF POSITION SENSITIVITY DESIGNATIONS
       FOR A GENERAL SUPPORT SYSTEM .........................................................................27
    3. AGENCY RESPONSE TO DRAFT AUDIT REPORT .......................................................29
    4. STATUS OF AUDIT REPORT RECOMMENDATIONS ....................................................33




                                                           iii
This Page Intentionally Left Blank




                iv
RESULTS OF AUDIT

NPS’ organization            Until the National Park Service (NPS) implements a sound and
does not support             consistently practiced information security program, it will have
                             little assurance that its information technology (IT) systems provide
an effective
                             reliable, confidential, and available information. An effective
information                  information security program should provide for assigning
security                     responsibilities, establishing and enforcing security policies and
management                   procedures, managing risk, and monitoring the adequacy of IT
program.                     security controls. NPS has not, however, established the basic
                             framework for a good program. As a first step, NPS needs to make
                             IT security an overall top priority and ensure that all levels of
                             management understand their roles and responsibilities and are held
                             accountable for safeguarding information and IT systems. The
                             discussions that follow highlight areas where we believe
                             improvements are needed for NPS to have effective information
                             security management program.

CIO lacked authority         The NPS chief information officer (CIO) does not have the authority
to be fully effective.       to manage all NPS information resources. Although the CIO
                             position reports to a NPS Deputy Director, the CIO position has not
                             been empowered to fulfill the responsibilities of a chief information
                             officer. For example, the CIO is not an active member of the NPS
                             National Leadership Council, as required by the Secretary of the
                             Interior.1 As such, the CIO was not able to effectively aid senior
                             management in identifying IT security requirements and in
                             developing sound IT security strategies. We also found that
                             although the CIO may develop IT security policies, procedures,
                             standards, and guidelines, the CIO lacked the authority to issue and
                             to enforce compliance with these IT security directives by office,
                             program center, region, and park unit management. Figure 1
                             presents our understanding of NPS’ IT management structure and
                             shows that the CIO does not have authority over office, program
                             center, region, and park unit IT staffs.




1
  The NPS National Leadership Council is the NPS’ executive-level decision-making team. Secretarial Order,
3244, requires each bureau to have its CIO be a fully participating member of each bureau’s executive
leadership/management team.

                                                     1
      Figure 1. Office of Inspector General’s representation of NPS’ IT management structure.

Regional IT security      Regional IT Security Managers (RITSM) were not delegated
managers lacked           sufficient authority to exercise their responsibilities and were not at
authority to be           organizational levels commensurate with their IT security
effective.                responsibilities. (See Figure 1 above.) In the two regions we visited,
                          one RITSM was organizationally three levels below the regional
                          director and the other RITSM was one level below the regional
                          director. Also, one of the RITSMs stated he/she did not have the
                          authority to enforce information security policies and procedures at
                          the park units. We believe that the regional IT security function
                          should be part of the regional directorate to be at an organizational
                          level to exercise their responsibilities and authority.


                                                2
Adequate separation    NPS did not assign IT duties and responsibilities to provide for
of IT duties was not   adequate separation of duties to prevent overriding critical processes
implemented            by a single individual. For example:
throughout NPS.
                          ¾ The Bureau IT Security Manager (BITSM) was responsible
                            for overall NPS information security and was also designated
                            the system security manager for the NPS primary wide area
                            network, NPSNet. Therefore, the BITSM was responsible
                            for reviewing his own activities. Additionally, the BITSM
                            was performing as both the BITSM and as the OCIO Project
                            Manager.

                          ¾ RITSMs were responsible for IT security and performed
                            daily regional IT operations. Therefore, they could not
                            independently perform their security responsibilities.

                          ¾ Individuals responsible for system security management
                            were also responsible for administering systems and
                            networks. For example, at the Network Management Office,
                            Intermountain Region support office, Natural Resources
                            Program Center, Rocky Mountain National Park, Point
                            Reyes National Seashore, and Bandelier National
                            Monument, system administrators were also performing IT
                            security functions.

                          ¾ At three data centers, application programmers had access to
                            the data centers, which may provide programmers the
                            opportunity to modify or change production data, operating
                            system configuration, and database management systems.
                            Generally accepted information security practices
                            recommend that application programmers should not have
                            access to production data, operating systems, and database
                            management systems because of the risk that inappropriate
                            or malicious code could be installed and result in a
                            compromise of the information and IT systems.

                       We realize that separation of duties may not be feasible at each park
                       unit, but controls could be implemented such that regional IT staff
                       help support the park units by performing some of the park unit’s
                       security functions, such as reviewing system generated logs. At
                       locations where adequate separation of duties cannot be achieved,
                       NPS should ensure that risk assessments identify the lack of
                       adequate separation of duties so that management understands this
                       risk and can make a cost-effective decision to either mitigate or
                       accept the risk.




                                            3
Position descriptions         Position descriptions for personnel with significant information
and performance               security responsibilities, such as system owners, system and network
standards did not             administrators, and RITSMs, did not specify IT security
address IT security.          responsibilities and duties. In addition, the CIO’s performance
                              standards did not include information security as a rating factor.
                              Consequently, NPS management and personnel that should be
                              responsible for ensuring IT resources are adequately safeguarded
                              could not be evaluated based on how they performed their security
                              responsibilities.

Level of risk                 NPS had not established an overall sensitivity level for IT positions
associated with IT            in relation to the duties to be performed. The Departmental Manual
positions was not             (441 DM 3) requires that positions be reviewed to determine the risk
established.                  of an individual performing the duties of the position and for
                              assigning the appropriate sensitivity level for those positions.
                              Specifically, NPS had not designated the appropriate sensitivity
                              level of public trust2 IT positions, such as system security manager,
                              system administrator, and telecommunications specialist,
                              commensurate with the risks associated with the duties. For
                              example:

                                  ¾ Position sensitivity designations were different for personnel
                                    performing the same IT duties. One RITSM was designated
                                    a sensitivity level of “non-sensitive” (low risk), while the
                                    other was designated a sensitivity level of “noncritical-
                                    sensitive” (moderate risk). This resulted in NPS
                                    management accepting different levels of risk for positions
                                    with similar duties and functions. In addition, different types
                                    of background investigations would be required.

                                  ¾ IT positions and functions being performed by contractors
                                    were not assigned sensitivity levels. For instance, we
                                    reviewed three contracts that provided for contractor
                                    personnel to perform IT functions at NPS’ data centers. We
                                    found that the contracts had no requirement for designating
                                    sensitivity of the contractor positions, such as application
                                    programmer, network administration, and tele-
                                    communications support, or for background investigations
                                    and resultant security clearances. One of these contracts
                                    required contract employees to be fingerprinted and for
                                    background checks to be performed. However, NPS was not
                                    able to substantiate that background investigations were
                                    completed and that the appropriate security clearances were
                                    obtained.

2
 According to the Departmental Manual (441 DM 3), public trust positions are those that are not related to
national security duties.

                                                       4
                             ¾ Management at one region stated that background
                               reinvestigations had not been performed of its employees.

                         To determine position sensitivity, NPS could develop a matrix of all
                         positions related to IT responsibilities and identify the associated
                         risks to information and IT systems and the sensitivity level of those
                         positions. Appendix 2 presents an example of this matrix concept.

IT training required to During our site visits throughout NPS, we observed that overall the
safeguard IT resources IT staffs at these sites were resourceful and effective in providing IT
was not mandated.       services and customer support. However, while NPS provided basic
                        computer security awareness training and other IT-related training, it
                        did not ensure that IT specialists in regions and park units were
                        encouraged or required to receive training specific to information
                        security and IT security management. For example, an IT specialist
                        at a park unit had to determine on his/her own how to implement a
                        new system. In addition, at most locations we visited, personnel had
                        not been provided training specific to their duties and fulfilling their
                        responsibilities in managing and operating NPS networks and
                        servers. For instance, one IT specialist did not receive training on
                        implementing a planned new NPS operating system. In that regard,
                        NPS had not developed an IT career management program that
                        included training requirements for all levels of IT positions. Without
                        a structured training program for employees with IT responsibilities,
                        NPS lacks assurance that networks, systems, and data were
                        adequately safeguarded.

IT systems were not      NPS did not properly categorize its general support systems and
properly categorized.    applications as mission critical. The Department of the Interior’s
                         “Asset Valuation Guide” requires bureaus to categorize an IT
                         system that processes, stores, or transports (1) Privacy Act or
                         proprietary information as Mission Critical and (2) financial-related
                         information as Financial Systems, which is above mission critical.
                         The guideline also states that IT systems that are critical to the
                         support of the Department’s core missions and goals and not
                         assigned a higher category are to be categorized as mission critical.
                         Almost all NPS networks transport these types of information;
                         however, NPS categorized its networks at a lower level—business
                         essential. Further, NPS’ Facilities Maintenance Support System, a
                         major application, was categorized as business essential, even
                         though the information in this system was used and maintained to
                         support a DOI mission goal. Without performing asset valuations to
                         properly categorize its systems, NPS has little assurance that all
                         system resources have appropriate levels of protection.

IT risk assessments      NPS had not performed risk assessments for 17 of its 20 general
were not performed.      support systems and major applications. NPS reported to the
                         Department that risk assessments had been performed for the 3

                                               5
                              remaining systems—a general support system (NPSNet) and 2
                              major applications (Lotus Notes/Domino and ParkNet). However,
                              we reviewed two of these risk assessments (NPSNet and Lotus
                              Notes/Domino) and found that the assessments were incomplete, as
                              follows:

                                  ¾ The NPSNet risk assessment was an initial assessment,
                                    which is less detailed and less extensive than a full risk
                                    assessment.

                                  ¾ The Lotus Notes/Domino risk assessment focused only on
                                    three major data centers, which would not likely represent
                                    the NPS-wide risk environment. Also, the assessment did
                                    not identify and assess all possible risks such as those
                                    introduced by the supporting general support systems.
                                    Further, the assessment was based on the loss of operations
                                    only, and did not consider the value of the data maintained in
                                    the major application.

                                  ¾ Neither of the risk assessments included:

                                        o Input from all data owners, such as program center
                                          managers, regional directors, or park unit
                                          superintendents, in the determination of the risks.

                                        o Evidence that management agreed to mitigate the
                                          identified risks or to accept the residual risks.

                              Therefore, the level of risk may not be at an acceptable level to
                              ensure that all information processed, stored, and transported was
                              adequately safeguarded and that residual risk was understood and
                              accepted by management.

System security plans         NPS began drafting system security plans for local area and wide
were not adequate.            area networks, such as NPSNet, Intermountain Region,3 Pacific
                              West Region, and Natural Resources Program Center networks.
                              This is good; however, the requirement for system security plans
                              was established in 1987.4 The purpose of a system security plan is
                              to provide an overview of the security requirements of the system
                              and describe the controls in place or planned for meeting those
                              requirements. System security plans should include the elements
                              identified in the National Institute of Standards and Technology

3
  Intermountain Regionwide area network security plan included appendices for 67 of the park units within the
region.
4
 Computer Security Act of 1987 required that for each system a plan for the security and privacy of each
Federal computer system be developed one year after the enactment of the Act.

                                                      6
                       Special Publication 800-18 “Guide for Developing Security Plans
                       for Information Technology Systems,” and DOI policies. However,
                       the NPS security plans did not always include the following required
                       features:

                           ¾ Appropriate assignment of responsibilities.

                          ¾ Appropriate classification of data sensitivity and criticality
                            that was processed, stored, and transported.

                          ¾ Descriptions of components of general support systems and
                            the applications they support.

                          ¾ Identification of general support systems that support the
                            major applications.

                          ¾ Identification of all of the interconnection points (including
                            Internet service providers and dial-in access) and agreements
                            for connecting to other NPS internal and external networks.

                          ¾ Physical and environmental controls.

                          ¾ All milestone dates for implementing planned controls.

                       In a related matter, the CIO was in the process of consolidating
                       individual park unit local area networks and regional wide area
                       networks for the purpose of performing only one certification and
                       accreditation. Office of Management and Budget (OMB) Circular
                       A-130, Appendix III, “Security of Federal Automated Information
                       Resources” stipulates that any interconnected system, such as a local
                       area network, under the same direct management control is
                       considered a general support system requiring a system security
                       plan. Local area networks at the park units and the regions are
                       under the management control of the park superintendents and the
                       regional directors, respectively. Therefore, we believe that unless
                       the consolidated system is under the direct management control of
                       the CIO, each network will require a separate security plan that
                       should be included as part of the one general support system security
                       plan.

Plans of Actions and   OMB requires that agencies develop Plans of Actions and
Milestones were not    Milestones (POA&M) for every program and system for which
adequate.              weaknesses are identified through internal and external reviews.
                       The POA&M process is to aid management in identifying,
                       prioritizing, and monitoring the progress towards correcting the
                       security weaknesses. Although NPS’ POA&Ms have improved,
                       they were not adequate for the following reasons:


                                           7
                            ¾ All of the weaknesses identified by the Office of Inspector
                              General (OIG), NPS internal control reviews, and DOI
                              program reviews were not included. For example, all
                              financial statement findings related to IT that had been
                              reported by the OIG for fiscal years 2001 and 2002 were not
                              included in the POA&M.

                            ¾ There was no prioritization or strategy for correcting the
                              weaknesses. For example, a security plan was to be
                              developed for a general support system by July 1, 2003,
                              whereas prerequisite reviews and documents, such as an
                              asset valuation, a technical vulnerability assessment, and a
                              management control review, were not planned to be
                              completed until October 1, 2004.

                            ¾ Dates reported for corrective actions were not consistent
                              with the supporting documentation. For example, in the June
                              2003 POA&M submitted to the Department, NPS reported
                              that the system security plan for NPSNet was completed in
                              December 2002; however, only a draft system security plan
                              dated June 2003 had been done.

                            ¾ All of the weaknesses in systems’ components were not
                              identified by NPS and therefore were not included in the
                              POA&M. For example, NPS did not recognize that storing
                              backup media at employees’ homes was a security weakness.

                            ¾ Incremental steps needed to mitigate identified weaknesses
                              were not reported. For example, in the June 2003 POA&M,
                              NPS identified a weakness related to Internet connections.
                              The planned corrective action involved two options and one
                              milestone completion date of December 30, 2004. However,
                              the POA&M did not include steps and completion dates for
                              determining which option to select and the incremental steps
                              for implementing the selected option. Consequently, NPS
                              reported the status of this particular item action as “ongoing”
                              and did not indicate the progress in correcting the weakness.

                        During the course of our audit, NPS began to identify the resources
                        needed to correct the reported IT weaknesses. However, these
                        resource costs had not been integrated with the NPS IT capital
                        planning and control process.

System users’ accounts Because system users’ accounts were managed by each NPS
were mismanaged        organizational unit (offices, program centers, regions, and park
throughout NPS.        units) and inconsistent methodologies were practiced in managing
                       system user accounts, NPS had little assurance that users’ access


                                             8
                          levels were based on the users’ day-to-day activities or that the user
                          accounts were authorized. For example:

                             ¾ User accounts were not always disabled or deleted when
                               individuals left NPS or changed positions within NPS.

                             ¾ Users were issued multiple system user identifications,
                               which may allow them to circumvent system access controls
                               and bypass separation of duties.

                             ¾ Users at one park unit were automatically provided dial-in
                               access when their user accounts were established by the park
                               unit’s IT staff even though we found no evidence that the
                               users were authorized this type of access.

                             ¾ There appeared to be no periodic review of user accounts by
                               system owners or supervisors to ensure that the level of
                               access granted was appropriate for each system user.

Password                  NPS had not consistently applied standard password procedures and
management was            practices for its servers to ensure adequate password management.
inconsistent.             For example, at one location the setting for lockout duration was
                          “Forever” and at another location the setting was for 90 minutes. If
                          the setting for “password lockout duration” is not set on “Forever”
                          an intruder has the opportunity to obtain the password because it
                          allows unlimited guesses. Additionally, we found that password
                          settings in servers at some locations allowed users to circumvent the
                          requirement for changing their passwords periodically.
                          Consequently, the users could continually change their passwords
                          until their original password could be used again. As a result, NPS
                          systems may be operating with less stringent controls than expected
                          by management.

Physical access to IT     We found that access to data centers was not always adequately
resources was not         controlled. For example:
sufficiently controlled
and monitored.               ¾ Although the Information Technology Center (ITC) used
                               access cards and video monitoring as physical access
                               controls to the data center, individuals who had key cards
                               and accessed the data center were not always approved for
                               access. We also noted that there were an excessive number
                               of personnel with access to the data center, such as
                               application programmers who were not part of the ITC or the
                               OCIO. Due to potential blind spots in video monitoring, best
                               practices suggests that methods be used to monitor personnel
                               exiting data centers.



                                               9
                         ¾ At the National Information Systems Center (NISC) data
                           center, access was through the use of a cipher door lock.
                           Although there were sign in/sign out logs, only non-NISC
                           personnel were required to sign the logs. Consequently,
                           there was no record of NISC personnel activities and specific
                           NISC personnel could not be held accountable for any
                           misuse of computer resources.

                      At the park units we found that:

                         ¾ Access to telecommunications closets was not limited. That
                           is, they were located in general working areas, such as where
                           a copy machine was located, a loading/receiving dock, a
                           break room, and an amphitheater.

                         ¾ One server room was located in a general work area and was
                           accessible by personnel other than IT personnel.

Environmental         At many park units visited, we noted that the server rooms did not
controls were not     adequately protect personnel and IT equipment. Specifically, some
adequate to protect   server rooms did not have adequate air conditioning units and proper
personnel and IT      fire suppression capabilities. For example, at Bandelier National
equipment.            Monument:

                         ¾ The air conditioner in the server room had a water leak.
                           Although a bucket was placed below the air conditioner to
                           catch the water, we observed water stains on the floor.

                         ¾ Access to the server room was from the outside of the
                           building and the access door was not sealed, thus the room
                           was susceptible to dust, sand, and rain.

                      The room was too small to house all of the equipment along with
                      personnel and to provide for proper wire management. See Figure 2.




                                          10
           Figure 2. Photographs of the Bandelier National Monument Server Room

                        Although many park units use historical buildings as facilities for
                        housing local area network server rooms, locating servers in
                        historical buildings should not preclude NPS from implementing
                        adequate environmental controls. Some examples of
                        improvement that would not require changes to the historical
                        structure or the building of new facilities may include:

                            •   Installing air conditioning units.

                            •   Installing rack and shelf systems to better use small spaces.

                            •   Installing weather seals around doors.

                            •   Supplying fire extinguishers.

Change management       NPS has an Information System Life Cycle Manual which
controls were not       contains instructions on managing changes to systems. However,
effective.              NPS did not have adequate controls over changes to computer
                        hardware, such as computers, servers, and routers; operating
                        systems; and application software. We found no evidence that
                        changes made by IT personnel in program centers, regions, and
                        park units to operating systems and application programs were
                        authorized, tested, and approved prior to installation. We also
                        found no evidence that the program centers, regions, and park
                        units were required to develop test plans for changes and
                        enhancements to operating systems and application software.




                                           11
Continuity of services      NPS has not instituted adequate continuity of services planning.
planning needs              Continuity of services planning helps management identify and
improvement.                prioritize those daily processes or critical business functions that
                            need to be restored first after emergencies, such as power
                            interruptions or system failure. Weaknesses we observed in NPS’
                            preparation for continuity of services included:

                               ¾ Inadequate backup practices and offsite storage facilities to
                                 keep backup media and system and application
                                 documentation. For example, NPS practices did not
                                 include full back up of data and systems on any scheduled
                                 cycle.

                               ¾ Using employee homes as the off-site storage location for
                                 application software and network operating system back-
                                 up media rather than a location that could be easily
                                 accessed by all required personnel.

                               ¾ Not storing at an off-site location security documents, such
                                 as system security plans and continuity of operations plans.

                               ¾ Not testing those contingency or continuity of operations
                                 plans that did exist.

Incident response           While some guidance had been issued, NPS had not distributed
capability was not fully    specific procedures for incident detection, reporting to FedCIRC,
developed.                  and responding to incidents. Additionally, we believe NPS’
                            policy for computer incident response was insufficient because it
                            did not: (1) include all types of incidents, such as the misuse of
                            government computers; (2) provide the protocol for
                            communicating an incident; and (3) specify the procedures for
                            mitigating an incident. For example, one regional network
                            manager reported to the NPS wide area network management that
                            an Internet scan had occurred of the regional network, which was
                            trafficked through the NPS wide area network firewall. However,
                            the regional network manager did not receive feedback or a
                            response from NPS management, thus the regional network
                            manager had little assurance that the potential incident had been
                            mitigated. In addition, NPS had not ensured that all individuals
                            responsible for IT security management were adequately trained
                            in their incident handling responsibilities.

Capability for detecting,   NPS was not routinely creating, reviewing, and maintaining
identifying, and            system logs for network operating systems and routers. System
reporting IT misuse was     logs are used to detect and identify system misuse or inappropriate
limited.                    actions of authorized and unauthorized users. At several locations
                            the logs were set to overwrite at a very low threshold; thus the
                            logs were overwritten frequently and historical information was

                                               12
                     lost. At some locations we visited, the logs were not created, and
                     logs that did exist were not being periodically reviewed. NPS had
                     no policy for creating, reviewing, and maintaining system logs.
                     Without appropriate logging of system activities, NPS may not be
                     aware of potential incidents and be able to timely identify
                     individuals who were misusing IT resources.

Standardized         There was no standard configuration of NPS’ network security
configuration of     infrastructure, such as the use and placement of firewalls and
network security     intrusion detection systems. At one park, IT security personnel
infrastructure was   incorrectly assumed that the NPS wide area network, NPSNet,
lacking.             was providing security to protect their specific network, systems,
                     and data. We also found that regions and park units had not
                     always implemented significant protection for their networks such
                     as firewalls. At two locations that had implemented firewalls, IT
                     system administrators detected scanning of their networks from
                     the Internet, which could be considered a threat that was not
                     blocked at the NPSNet level. Without a standard security
                     configuration, NPS was not able to effectively protect its IT
                     resources and ultimately implement security best practices.




                                       13
This Page Intentionally Left Blank




               14
RECOMMENDATIONS FOR IMPROVING NPS’
INFORMATION SECURITY MANAGEMENT PROGRAM
We recommend that the Director, NPS:

                   1. Assign to the CIO the duties and responsibilities as defined by the
                Secretary and authorize the CIO to issue information security directives to
                NPS personnel with IT security responsibilities.

                    2. Implement an effective information security program. In
                establishing this program, NPS should consider:

                    Dual reporting of information security management staff:

                       •   At regions, RITSMs should report to the regional directors and
                           to the CIO and be authorized to carry out IT security
                           management responsibilities directly to regional and park IT
                           staff.

                       •   At park units, IT personnel should report to the superintendents
                           and to the regional information security managers.

                    Dedicate the BITSM and RITSMs to only security program
                     management.

                    3. Provide written notification to personnel with IT security
                responsibilities specifying their duties and functions. Hold individuals
                accountable for fulfilling these responsibilities through annual
                performance evaluations. In meeting this requirement, NPS should:

                    Identify all individuals/positions such as associate directors,
                     program managers, regional directors and all staff who are
                     responsible for managing and administering NPS IT systems,
                     networks, and data.

                    Review position descriptions of all positions identified as having
                     IT security responsibilities and update the position descriptions to
                     reflect current duties and responsibilities.

                    Update individual performance evaluation plans for those positions
                     identified as having IT security responsibilities to include
                     information security management tasks, functions, and strategic
                     planning.



                                           15
    Designate, for each position having IT responsibilities, a
     sensitivity level commensurate with the risks of the duties
     performed and ensure the appropriate background checks or re-
     checks be performed based on the designated sensitivity level.

    4. Separate the duties and responsibilities of IT personnel to ensure
that unauthorized activities can be detected timely. To ensure duties and
responsibilities are adequately separated NPS should:

    Identify personnel at all locations who have IT security
     management duties and responsibilities and who are also
     responsible for performing system and network administration
     duties. If possible, separate these duties or develop alternative
     processes to provide for separation of duties.

    Implement alternative controls, such as, moving some security
     management responsibilities to different organizational levels if
     separation of duties at some locations is not cost effective.

    Identify personnel at all major data centers who are responsible for
     programming software applications and for system administration
     functions and separate these duties or develop alternative processes
     to provide for separation of duties.

    Identify the lack of separation of duties in the security plans and
     require management to formally accept the risk associated with the
     lack of separation of duties if alternative controls are not feasible.

     5. Modify all IT support contracts to require position sensitivity for
all IT positions and require appropriate background investigations and
security clearances for all contractor personnel performing IT functions.

    6. Establish an IT career-training program for all NPS IT
professionals. The training program should be based on NPS’
implemented and planned systems, networks, and software. NPS should
periodically review the training program to ensure that IT professionals
are provided training on the most current security requirements and the
most up-to-date technology implemented or planned by NPS.

   7. Perform asset valuations for all general support systems and
applications to properly categorize these systems based on their
importance and critical loss criteria in accordance with the Department’s
“Asset Valuation Guide.”

   8. Perform risk assessments of all general support systems and major
applications to identify risk, threats, and vulnerabilities that impact the
accomplishment of the NPS’ and the Department’s missions and the


                            16
security and data integrity, confidentiality, and availability. NPS should
also ensure that risk assessments include input from senior management
and data owners.

   9. Develop security plans for all general support systems and major
applications following NIST and Departmental guidelines.

  10. Establish procedures to ensure that the POA&Ms are used as a
management tool. The procedures should include:

    Requirements for reporting all the weaknesses identified and
     reported by OIG, NPS, and other reviews performed on behalf of
     NPS.

    A prioritized strategy to correct all identified security problems.

    Assurance that the completion dates are supported by the
     applicable documentation.

    Requirements for corrective actions that exceed 6 months to have
     incremental steps to correct the weaknesses, milestone dates, and
     resources required.

    Integration of resources identified in the POA&Ms for correcting
     weaknesses with the capital investment planning and control
     process.

   11. Establish a standardized process for system user accounts that
includes:

    Coordinating with Human Resources, system owners, and
     supervisors to identify and report to the IT system security
     administration staff the names of employees who are no longer
     employed by NPS, have a change in responsibilities and duties, or
     have transferred from NPS locations. Upon notification, IT system
     security administration staff should disable user accounts or
     immediately terminate access from all applicable systems,
     applications, and data centers.

    Establishing a policy requiring each user of NPS systems to have
     unique user identifications. The policy should specifically state
     when a single user could have multiple identifications and describe
     the controls to ensure the use of multiple identification does not
     circumvent separation of duties.

    Developing procedures requiring system owners or supervisors to
     periodically review and validate users’ access and privileges.



                           17
   12. Establish standard password configuration settings to ensure that
all IT system resources are protected at an acceptable level.

   13. Establish policies, procedures, and practices to ensure that physical
and environmental controls protect systems and data from misuse or
interruption, and physical damage or destruction and that personnel have a
safe working environment. In developing these policies, procedures, and
practices NPS should:

    Evaluate the facilities that house the data centers, server rooms,
     and telecommunications closets to determine if the access controls
     and environmental controls are effective. If the controls are not
     effective, identify cost effective remediation controls and report
     the status in NPS’ POA&Ms.

    Review the current lists of personnel with access to the all data
     centers and determine if the access granted is necessary and revoke
     access that is not required.

    Require the use of sign in/sign out logs or other entrance/exit
     technologies at data centers and compare physical access logs to
     computer logs.

   14. Establish standard change management procedures to ensure that
all changes are authorized, tested, and approved prior to updating
operating systems and applications. To aid in standardizing its change
management process, NPS should consider the use of change management
software to assist in the control over modifications made to operating
systems and applications.

   15. Establish policies and procedures to ensure that all NPS systems
and applications can be restored or recovered timely in the event of system
failures or disasters. These policies and procedures should:

    Define the appropriate backup and recovery requirements of IT
     services that clearly define personnel roles and responsibilities and
     standard types of back-ups and timeframes for backing up systems
     and data.

    Define appropriate offsite storage locations and ensure that backup
     data and system documentation are stored in these offsite storage
     locations.

    Develop continuity of operations plans for all NPS locations and
     ensure that the plans are tested and updated annually.




                           18
   16. Establish an incident handling organizational structure and a
process for identifying, reporting, and mitigating computer-related
incidents.

   17. Establish policies and procedures to ensure that systems are
logging relevant information, logs are maintained for an appropriate
period of time to provide an adequate audit trail of systems activities, and
the logs are reviewed periodically to identify inappropriate activities.

   18. Establish standard network security infrastructure based on a
layered security approach that includes firewalls and intrusion detection
systems throughout the NPS internal networks. To accomplish this layered
security approach, NPS should:

    Require networks topologies be developed for all offices, program
     centers, regions, and park units to determine the appropriate
     security infrastructure solution that complies with best practices.

    Create standard firewall rules that prevent unauthorized access
     from the Internet into the park unit networks.




                            19
This Page Intentionally Left Blank




               20
AGENCY RESPONSE AND
OFFICE OF INSPECTOR GENERAL REPLY
         In the February 6, 2004 response to the draft report (Appendix 3) the
         NPS Director concurred with the 18 recommendations. The response
         described recent NPS IT security accomplishments, and commented on
         the findings and recommendations. Also, the NPS CIO provided
         subsequent information about the report and the response. We revised
         the report as we considered appropriate based on the NPS response and
         additional information provided.

         Based upon NPS’ replies, we classified Recommendations 7 and 8 as
         resolved; Recommendations 12 and 13 as resolved but not implemented;
         Recommendations 1, 2, 3, 4, 5, 6, 10, 11, 14, and 16 as management
         concurs but additional information required; and Recommendations 9,
         15, 17, and 18 as unresolved. (See Appendix 4.) Even though NPS
         agreed with all the recommendations, we considered four of the
         recommendations as unresolved because the proposed actions did not
         meet the intent of the recommendations, as discussed below.

         Recommendation 9. Although NPS completed all “initial” system
         security plans in December 2003, our recommendation was to develop
         system security plans for all general support systems following NIST
         Special Publication 800-18 and Departmental guidelines. While
         Departmental guidelines include the development of “initial” system
         security plans, these initial plans are not a finalized system security plan.
         That is, they do not include information from risk assessments and
         system testing and evaluations. As such, they do not adequately address
         the controls necessary to reduce risk to an acceptable level. Further, NPS
         disagreed that system security plans were needed for each park unit’s and
         regional office’s local area networks even though these networks are
         under the management control of the respective parks and regions.
         According to Office of Management and Budget Circular A-130,
         Appendix III, these networks are general support systems requiring
         system security plans. Furthermore, without system security plans for
         each of these local area networks, NPS has little assurance that these
         networks are operating securely and that the NPS-wide network is
         adequately safeguarded. NPS should prepare a plan for developing
         system security plans for all general support systems and major
         applications and for incorporating park units and regional office local
         area networks into its one general support system.

         Recommendation 15. NPS stated that a continuity of operations plan
         would be completed by its IT Infrastructure team by 2005. Our


                                   21
understanding is that NPS is developing one continuity of operations plan
for its one general support system. If that is the case, we do not believe
that NPS will have sufficient procedures to ensure that major applications
are restored timely and those NPS locations that input, process, transport,
and store information will be able to recover from system failures or
disasters expeditiously. NPS should develop policies and procedures
ensuring that NPS information, systems, and applications can be restored
or recovered timely; that backup and recovery is practiced by all levels of
NPS management; that offsite facilities are adequate; and that continuity
of operations plans are tested and updated annually.

Recommendation 17. NPS is requesting funding for acquiring software
to manage system events. Our recommendation, however, dealt with
preparing policies and procedures to make sure relevant information
about system events was logged and reviewed. As logging capability
currently exists within most NPS systems, the intent of our
recommendation was for NPS to consider acquiring a software tool that
would take advantage of existing logging capability and for NPS to
periodically review logs to identify inappropriate activities.

Recommendation 18. The response focused on the conversion of the
NPS core networks to the Department’s Enterprise Services Network.
However, the recommendation was for NPS to develop a layered
approach to security to include safeguarding all internal networks, such
as the networks operated and maintained at regions and park units.




                          22
AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY
        Our objective was to evaluate the effectiveness of NPS’ management and
        controls over IT resources to ensure integrity, confidentiality, and
        availability of information and IT systems. Specifically, we evaluated
        information security management practices and general controls over non-
        financial IT systems (see Appendix 1 for the systems reviewed).

        To evaluate these controls, we reviewed NPS policies, procedures, and
        practices in place during April through August 2003, tested and observed
        security practices and IT security control techniques in operation, and held
        discussions with NPS staff to determine whether IT security controls were
        in place, adequately designed, and operating effectively. We performed
        on-site work at NPS headquarters in Washington, D.C. and other NPS
        locations listed in Appendix 1.

        Our audit was conducted in accordance with the “Government Auditing
        Standards” as issued by the Comptroller General of the United States.
        Accordingly, we included tests and other auditing procedures that were
        considered necessary under the circumstances.




                                   23
This Page Intentionally Left Blank




               24
                                                                                        APPENDIX 1



                   SITES VISITED AND SYSTEMS REVIEWED

    Office of the Chief Information Officer
       Network Management Office (NMO)                          Denver, Colorado
       NPS wide area network (WAN)/(NPSNet)

       National Information Systems Center (NISC)               Denver, Colorado
       Denver General Support System (GSS)/local
       area network (LAN)

       Information Technology Center (ITC)                      Washington, D.C.
       ITC LAN

    Natural Resources Program

       Natural Resources Program Center (NRPC)                  Ft. Collins, Colorado and
       NRPC GSS/LAN                                             Denver, Colorado

    Intermountain Region (IMR)5
       Santa Fe Support Office                                  Santa Fe, New Mexico
       IMR GSS/WAN

       Rocky Mountain National Park                             Estes Park, Colorado
       Rocky Mountain LAN

       Bandelier National Monument                              Los Alamos, New Mexico
       Bandelier LAN

    Pacific West Region (PWR)
       Regional Office and Pacific Great Basin                  Oakland, California
       Support Office
       PWR GSS/WAN

       Golden Gate National Recreation Area                     San Francisco, California
       Golden Gate LAN

       Point Reyes National Seashore                            Point Reyes, California
       Point Reyes LAN




5
 The Intermountain Regional Office headquarters is located in Denver, Colorado and is supported by the
National Information Systems Center. The Santa Fe Support Office provides support for regional and
support personnel located in Santa Fe, New Mexico and for all the parks in the region.

                                                  25
This Page Intentionally Left Blank




               26
                                                                                                                 APPENDIX 2


                                   SUGGESTED MATRIX OF
                             POSITION SENSITIVITY DESIGNATIONS
                              FOR A GENERAL SUPPORT SYSTEM
                      (The minimum level of investigation associated with Public Trust Positions)

                                                   Designation
                                                  Investigation
         Role              Position               Requirement6                                   Justification
Program Manager      Deputy Director            High Risk – BI         Senior manager for system. As program manager who has ultimate
                                                                       management authority for systems.

Information Owner    Program Managers,          Moderate Risk – MBI    Senior manager for data contained in the system for their
                     Regional Directors,                               individual program, region, or park unit. System security and
                     Park Unit                                         back-up procedures, minimize the opportunity for a regional
                     Superintendents                                   director, superintendent or program manager to do major harm to
                                                                       the system. Oversight provided by headquarters.

Information System   CIO                        Moderate Risk – MBI    Minimal system access. Provides policy oversight for data
Owner                                                                  management.
Security Manager     BITSM/RITSM                High Risk – BI         Responsible for system integrity, confidentiality, and availability.
                                                                       Prepares bureau policy for system security.

System Manager       Deputy CIO                 High Risk – BI         Provides technical oversight to all system operations and
                                                                       administration from a headquarters level. Provides policy and
                                                                       guidance for regional and field operations.
System7 Security     Multiple employees         Moderate Risk – MBI    Responsible for system security design, testing, and maintenance
Manager              located in                                        under the technical guidance of the OCIO.
                     headquarters, offices,
                     program centers,
                     regions, and park units.
System2              Multiple employees         Moderate Risk – MBI    Responsible for system operation and maintenance at headquarters,
Administrator        located in                                        offices, program centers, regions, or park units. Work is under the
                     headquarters, offices,                            technical oversight of Regional Directors or Associate Directors.
                     program centers,
                     regions, and park units.
Internal NPS         Office, program            Low risk – NACI        Responsible for data entry and update. Access to the system is
Users2               center, regional, and                             limited to the functions performed and registration is required and
                     park unit employees                               managed by the system security managers or system
                                                                       administrators.


     This matrix was developed by the Office of Inspector General for use by the National
     Park Service as a guide to develop position sensitivity designations consistently for its
     personnel with IT responsibilities. The matrix was based on a U.S. Geological Survey
     review of roles and positions identified with IT responsibilities for one of its major
     applications. For each role and position, a level of risk/sensitivity and the related type of
     background investigation was defined along with the justification for the sensitivity level
     and type of background investigation.




     6
      BI – Background Investigation; MBI – Minimum Background Investigation; NACI – National Agency
     Checks and Inquiries.
     7
      The duties and background investigation requirements are applicable to federal employees, contractor
     employees, and volunteers.

                                                                  27
This Page Intentionally Left Blank




               28
     APPENDIX 3




29
30
31
This Page Intentionally Left Blank




               32
                                                                                 APPENDIX 4


               STATUS OF AUDIT REPORT RECOMMENDATIONS

 RECOMMENDATION
    REFERENCE                   STATUS                      ACTION REQUIRED

7 and 8                   Resolved               No further response is required.

12 and 13                 Resolved, not          No further response to the Office of
                          implemented            Inspector General is required. The
                                                 recommendations will be forwarded to
                                                 the Assistant Secretary for Policy,
                                                 Management and Budget for tracking of
                                                 implementation.

2, 3, 4, 6, 10, 11, and   Management             Provide the title of the official
16                        concurs, additional    responsible for implementation.
                          information
                          required.

1, 5, and 14              Management             Determine how the recommendation will
                          concurs, additional    be implemented and provide plans
                          information            describing implementing actions, target
                          required.              dates, and responsible officials

9, 15, 17, and 18         Unresolved.            Reconsider the proposed corrective
                                                 actions and provide an updated reply.




                                                33
This Page Intentionally Left Blank




               34
